                                                        IG-03-002




AUDIT
                              EXPENDABLE LAUNCH VEHICLE
REPORT                          PERFORMANCE MEASURES

                                     October 16, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at
www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the NASA Inspector
General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The identity
of each writer and caller can be kept confidential, upon request, to the extent permitted
by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

ELV            Expendable Launch Vehicle
FY             Fiscal Year
GAO            General Accounting Office
GPRA           Government Performance and Results Act of 1993
HEDS           Human Exploration and Development of Space
NPD            NASA Policy Directive
OMB            Office of Management and Budget
QuikTOMS       Quik Total Ozone Mapping Spectrometer
                                    October 16, 2002

W


TO:            M/Associate Administrator for Space Flight

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of Expendable Launch Vehicle Performance
               Measures
               Assignment Number A-02-002-00
               Report Number IG-03-002

Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response has been incorporated into the
body of the report. We consider management’s proposed, corrective actions responsive
for the recommendation. The recommendation will remain open for reporting purposes
until corrective actions are complete. Please notify us when actions have been completed
on the recommendation. The final report distribution is in Appendix G.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report or would like to schedule an exit conference, please contact
Mr. Daniel Samoviski, Program Director, Earth/Space Science Audits, at (301) 286-
6890; Ms. Nora Thompson, Program Manager, at (757) 864-3268; or Mr. Jim Richards,
Auditor-in-Charge, at (321) 867-4841.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                                         2

cc:
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/M-5/Assistant Associate Administrator for Launch Services
HQ/JM/Director, Management Assessment Division
KSC/AA/Director, John F. Kennedy Space Center
KSC/VA/Manager, ELV and Payload Carriers Program, Kennedy Space Center
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendation, 2

      Performance Indicators in NASA Performance Plan, 2

Appendix A - Objectives, Scope, and Methodology, 7

Appendix B - ELV Program Performance Goals and Indicators Excerpted
             From the NASA FY 2003 Performance Plan, 10

Appendix C - Payload/Instrument Risk Categories in NPD 8610.7, 11

Appendix D - Risk Mitigation Requirements in NPD 8610.7, 13

Appendix E - Verification and Validation of Performance Data, 14

Appendix F – Management’s Response, 15

Appendix G - Report Distribution, 16
                           NASA Office of Inspector General

IG-03-002                                                                       October 16, 2002
 A-02-002-00

                                Expendable Launch Vehicle
                                  Performance Measures

                                      Executive Summary

Background. NASA's fiscal year (FY) 2003 budget for Expendable Launch Vehicle
(ELV) services1 is $338 million,2 including $36 million for technical management and
acquisition services. The term expendable applies to launch vehicles that are used once
and not recovered for reuse.3 In February 2002, the NASA Administrator4 stated
"NASA's ELV Program continues to afford the Agency a high level of launch success,
with an impressive flight record of 98 percent." Within the Human Exploration and
Development of Space (HEDS) Enterprise,5 the Office of Space Flight has overall
responsibility for the ELV Program. Customers of the ELV Program include NASA
Enterprises, such as the HEDS, Earth Science and Space Science Enterprises, and other
Federal agencies such as the National Oceanic and Atmospheric Administration. Launch
sites include Cape Canaveral Air Force Station, Florida; Vandenberg Air Force Base,
California; Wallops Flight Facility, Virginia; Kwajalein Island, Republic of the Marshall
Islands; and Kodiak, Alaska.

The NASA FY 2003 Annual Performance Plan (Performance Plan)6 includes two
performance goals related to the ELV Program and one performance indicator for each
1
  Since 1987, NASA has relied on commercially procured ELV's to meet its requirements for scientific,
Earth sensing, and planetary missions that do not require the Space Shuttle's unique capabilities. Before
1987, NASA relied primarily on the Space Shuttle for such missions and rarely used ELV's.
2
  The $338 million FY 2003 budget request for the ELV Program consists of (a) $36 million for ELV
mission support (technical management and acquisition services); (b) $148 million for launches by the
Space Science Enterprise (see footnote 5); (c) $53 million for launches by the Earth Science Enterprise;
(d) $7 million for launch services needed by the Tracking and Data Relay Satellite System; and (e) $94
million for launch services that NASA provides to other Federal agencies (for example, for weather
satellites launched by the National Oceanic and Atmospheric Administration). The Federal agencies
reimburse NASA for the $94 million in launch services the Agency provides them. The auditee provided
the FY 2003 ELV budget information.
3
  The Space Shuttle is NASA's only reusable launch vehicle currently in operation.
4
  The NASA Administrator's comment was part of his prepared statement to the House Committee on
Science, on February 27, 2002. The 98-percent success rate was based on 55 successful missions of 56
missions launched since 1987.
5
  NASA established five Enterprises to function in primary business areas for implementing NASA's
mission and serving customers. Each Enterprise has a unique set of strategic goals, objectives, and
implementing strategies that address the requirements of the Agency's primary customers. The five NASA
Enterprises are: Space Science, Earth Science, HEDS, Aerospace Technology, and Biological and Physical
Research.
6
  NASA included performance goals for the ELV Program beginning with the NASA FY 2002 Annual
Performance Plan.
goal (see Appendix B). The Performance Plan and ELV goals and indicators must meet
requirements of the Government Performance and Results Act of 1993 (GPRA)7 and
Office of Management and Budget (OMB) Circular A-11, "Preparing and Submitting
Budget Estimates." Goals and indicators must be defined either in an objective and
quantifiable manner or as precise, descriptive statements that allow an accurate,
independent determination to be made of actual performance. In addition to the goals
and indicators in the Performance Plan, Kennedy Space Center (Kennedy) has developed
several metrics to evaluate performance of operations and organizations that provide
launch services for the ELV Program.

NASA Policy Directive (NPD) 8610.7, "Launch Services Risk Mitigation Policy for
NASA-Owned or NASA-Sponsored Payloads," dated February 4, 1999, contains the risk
mitigation policy for launches of NASA-owned or -sponsored payloads. NASA payloads
must use reasonable commercial sources of launch services while ensuring vehicles are
not exposed to excessive risk. To control mission risk, management must categorize
payloads against specific criteria in NPD 8610.7 and select launch vehicles based on the
payload risk category (see Appendix C). Additionally, management must follow other
procedures in NPD 8610.7, relating primarily to procurement, that ensure the
implementation of risk mitigation policy (see Appendix D).

Objectives. Our overall audit objective was to evaluate the ELV Program's performance
measurement system and compliance with NASA risk mitigation policy for launch
vehicles. Specifically, we determined whether NASA did the following:

    •   Established a performance measurement system8 for the ELV Program that
        complied with Federal requirements and other appropriate criteria.

    •   Managed ELV launch services in compliance with Agency risk mitigation policy.
        Specifically, we determined whether NASA categorized payload and instrument
        risk and selected launch vehicles based on the risk category. We also determined
        whether NASA complied with other relevant provisions of NASA's risk
        mitigation policy, including applicable Federal and NASA clauses in contracts for
        launch services.

Details on the audit objectives, scope, and methodology are in Appendix A.

Results of Audit. Generally, NASA established an adequate performance measurement
system that complied with Federal requirements. Additionally, the four Kennedy metrics
that we reviewed met applicable GPRA and OMB requirements. Further, planned
procedures to verify and validate performance data for the ELV Program (see


7
 Public Law 103-62, as amended, contains the GPRA legislation.
8
 For purposes of this audit, the performance management system includes (1) NASA's system for
measuring ELV Program performance as stated in the NASA Annual Performance Plan and (2) the ELV
Program Office system for measuring performance.

                                                ii
Appendix E) appeared to meet requirements.9 Finally, the ELV Program Office met
NPD 8610.7 risk mitigation requirements that we reviewed for the nine launches
completed in or scheduled for 2001 through 2003.

However, NASA needs to clarify one of two ELV performance goals and indicators in
the Agency's FY 2003 Performance Plan to better meet GPRA and OMB requirements.
Specifically, the Office of Space Flight had not fully defined two key terms or provided
the basis for the prescribed 95-percent launch success rate used in one of two
performance goals and indicators in the FY 2003 Performance Plan. Fully defining the
terms and explaining the basis for the 95-percent rate will provide improved performance
information. With improved performance information, external stakeholders, such as the
Congress and the public, will be better able to determine the relative effectiveness of the
ELV Program and have confidence that the program's results justify the $36 million spent
for technical management and acquisition services for the $338 million ELV Program.

Recommendation. NASA should explain the ELV Program performance indicator in
the FY 2003 NASA Performance Plan or Performance Report to clarify the meaning of
the two key terms and the basis for the prescribed 95-percent launch success rate.

Management’s Response. NASA concurred with the recommendation and will take
corrective action starting with the FY 2002 NASA Performance Report, which NASA
expects to release in late-January 2003. The complete text of management’s response is
in Appendix F.




9
 NASA's FY 2002 Performance Plan explains NASA's planned verification and validation procedures for
FY 2002 performance data. However, we could not test the adequacy of procedures because they will not
be performed until after the end of FY 2002.




                                                  iii
Introduction

ELV Program Management. The NASA Office of Space Flight has responsibility for
the ELV Program. Within the Office of Space Flight, the Associate Administrator has
tasked the Assistant Associate Administrator for Launch Services to develop specific
objectives, strategies, and requirements for the ELV Program and to serve as an internal
and external advocate for the program. In addition, the ELV Flight Planning Board is the
Agency-level forum for approval of new missions, vehicle configuration changes, and
launch manifest changes. The Board includes representatives from four NASA
Enterprises--HEDS, Earth Science, Space Science, and Aerospace Technology. Kennedy
serves as the lead Center for ELV launch services through the ELV Program Office. The
ELV Program Office is responsible for technical management and acquisition of launch
services for all NASA-managed launches.

Performance Measurement. Performance measurement involves a process of planning
a goal, establishing an objective measure of actual performance, recording performance,
evaluating actual performance against the planned goal, and reporting results. GPRA, the
OMB, the General Accounting Office (GAO), and NASA use slightly different terms for
performance measures. GPRA and OMB define a performance measure as a
performance goal or performance indicator. GPRA states that a performance goal means
a target level of performance expressed as a tangible, measurable objective, against
which actual achievement can be compared. A performance indicator means a particular
value or characteristic used to measure output or outcome. The GAO considers
performance measures as synonymous with performance indicators. For performance
measurement, the NASA FY 2003 Performance Plan uses annual performance goals and
indicators.

Performance Goals and Indicators. The FY 2003 Performance Plan includes two ELV
Program performance goals and indicators (see Appendix B). NASA will use the goals
and indicators to report on performance of the ELV Program in the FY 2003 Performance
Report. Additionally, Kennedy has developed several performance metrics applicable to
the ELV Program, including metrics for mission success and customer satisfaction.

NASA Risk Mitigation Policy. NPD 8610.7 states that launch services acquired for
deployment of NASA-owned, NASA-sponsored payloads must take advantage of all
reasonable sources of U.S. commercial launch services and at the same time, ensure that
taxpayer-funded spacecraft are not exposed to excessive risk. The policy states that the
NASA launch services acquisition strategy shall seek to balance mission risk with the
demonstrated flight history and maturity of the launch vehicle. The policy provides
criteria for categorizing payloads, launch vehicle requirements for each category, and
controls to mitigate risk. Appendix C provides a description of categories and control
requirements, and Appendix D lists the other risk mitigation requirements we reviewed.
Finding and Recommendation

Performance Indicators in NASA Performance Plan

NASA needs to clarify one of the two ELV Program performance goals and indicators in
the NASA FY 2003 Performance Plan or Performance Report to better meet GPRA and
OMB requirements. Specifically, the Office of Space Flight has not fully defined two
key terms or the basis for the 95-percent success rate. The condition occurred because
the Office of Space Flight viewed the NASA Performance Plan as a high-level, succinct
document that did not require definition of every key term or the basis of the success rate.
Without improved performance information, external stakeholders, such as the Congress
and the public, may not be readily able to determine the relative effectiveness of the ELV
Program and may not have confidence that the program's results justify the $36 million
that will be spent in FY 2003 for technical management and acquisition services for the
$338 million ELV Program.

Federal Requirements for Performance Measurement

Both the GPRA and OMB Circular A-11 require management to define performance
goals and indicators in an objective manner to ensure that users of performance
information can accurately and independently determine actual performance.10 The GAO
stated that performance goals must specifically define the results the agency expects to
achieve for program activities in the agency's budget.11 Management must establish a
performance goal against an agency baseline, historical trend data, or benchmark from
another organization performing similar activities.

The GPRA and OMB Circular A-11 state that the objective of performance measurement
is to improve three areas. First, performance measurement will improve congressional
decision making because it provides decision makers objective information on how
Federal programs are actually performing. Second, performance measurement will
improve public confidence in the capability of the Federal government because reporting
actual performance holds Federal agencies accountable for results. Third, performance
measurement will improve service quality, because Federal managers must plan for
results and will have the information they need to achieve results.

The President's Management Agenda (Agenda) states that by FY 2003, Federal agencies
must formally integrate performance review with budget decisions as part of the



10
   The requirements are in GPRA, Section 4, and OMB Circular A-11, "Preparing and Submitting Budget
Estimates," July 17, 2001, Sec. 220.9, "General Guidelines on Developing Performance Goals and
Indicators."
11
   GAO guidance on defining performance goals and objectives is in the following: GAO/GGD-10.1-20,
"The Results Act: An Evaluator's Guide to Assessing Agency Annual Performance Plans," April 1998, and
GAO/GGD/AIMD 10.1-18, "Agencies' Annual Performance Plans Under the Results Act: An Assessment
Guide to Facilitate Congressional Decision-making," February 1998.

                                                  2
management initiative called Budget and Performance Integration.12 Budget and
Performance Integration connects goals with resources. The intent of Budget and
Performance Integration is to use objective measures that will identify Government
programs that are not succeeding or programs that should be reinvented, redirected, or
retired. It should allow the Congress, the public, and agency management to calculate
cost-effectiveness, compare different approaches to similar goals, and compare the
program to other programs with similar goals.

The FY 2003 Performance Plan

For one of the performance goals and indicators for the ELV Program, the NASA FY
2003 Performance Plan did not fully explain the terms “success” and “running average”
and did not provide the basis for the 95-percent success rate as shown below:

     Strategic Goal 1: Explore the Space Frontier

     Performance Goal and Indicator 3H03: Provide reliable launch services for
     approved missions.

         •   NASA success rate at or above a running average of 95 percent for missions
             noted on the Flight Planning Board manifest and launched pursuant to
             commercial launch service contracts.

The Performance Plan lacked specific detail on the terms success and running average
and on the bases for the 95-percent rate as discussed below:

     •   The Performance Plan did not specifically define success or state the criteria the
         Office of Space Flight would use to determine launch success. Launch service
         contracts include the criteria management will use to determine whether a launch
         is a success or failure, but the Performance Plan did not reflect the contract
         criteria.

     •   The Performance Plan did not state the timeframe for calculating the running
         average success rate. The Office of Space Flight explained that the running
         average applied to the period 198713 to the present rather than to the fiscal year.
         Also, the Performance Plan did not fully explain that the running average would
         not include launches of NASA secondary payloads.14 For example, the launch of
         the Quik Total Ozone Mapping Spectrometer (QuikTOMS) spacecraft failed on

12
   The President's Management Agenda includes the requirement under the section titled, "Budget and
Performance Integration." The President's Management Agenda states, "Agency performance measures
tend to be ill defined and not properly integrated into agency budget submissions and the management and
operations of agencies. . . ."
13
   The ELV Program used a 1987 start date because that was the year NASA changed from procuring ELV
vehicles to procuring ELV services.
14
   NASA secondary payloads on commercial launches receive much less NASA oversight and insight than
NASA payloads launched pursuant to NASA launch service contracts.

                                                   3
         September 21, 2001. The ELV Program running average will exclude the launch,
         because the QuikTOMS spacecraft was a secondary payload on a commercially
         sponsored launch.

     •   The Performance Plan did not explain the basis for the prescribed 95-percent
         success rate. The Office of Space Flight explained that the 95-percent rate was
         based on the goal to achieve a demonstrated reliability rate at or better than the
         standard ELV design reliability.15 The Performance Plan did not indicate why the
         95-percent rate was an acceptable indicator of successful performance or how the
         rate compared to other similar organizations.

High Level Document

The performance goal and indicator did not include fully defined key terms because the
Office of Space Flight viewed the NASA Performance Plan as a high-level, succinct
document that did not require the definition of every key term or number. NASA
personnel sufficiently understood the terms success and running average and the basis of
the 95-percent success rate. The Office of Space Flight believed that other stakeholders,
such as congressional oversight committees and the public, were familiar with NASA
missions and would understand the meaning of these terms without additional
explanations.

Better Performance Reporting for Stakeholders

Improved performance information will allow external stakeholders, such as the
Congress and the public, to better determine the relative effectiveness of the ELV
Program and to better evaluate whether the program's results justify the $36 million spent
annually for technical management and acquisition services for the program:

     •   The Congress and the public will know how NASA management will evaluate
         and report a launch that is not completely successful (for example, a mission
         launched into exact orbit after using extra propellant). Including this information
         in the Performance Plan helps the Congress and the public to better evaluate
         reports of successful performance.

     •   The Congress and the public will more clearly understand the calculation of the
         running average success rate. For example, external stakeholders can then
         understand why the ELV Program might have a high success rate during the same
         year a launch failed. Without properly explaining how the running average



15
  NPD 8610.7, "Launch Services Risk Mitigation Policy for NASA-Owned or NASA-Sponsored
Payloads,” requires 95-percent reliability for launch vehicles used to launch NASA payloads. Launch
vehicles with established launch history must demonstrate the reliability, while launch vehicles with
limited history must show a 95-percent predicted design reliability. See Appendix C for further
information on NPD 8610.7 reliability requirements.

                                                    4
          success rate is calculated, at least three different calculations (and resulting rates)
          are possible as shown below for fiscal year 2001:16


                               Running Average Success Rate
                              Description                                         Rate (percent)
         Years 1987 through FY 2001                                                   98.21
         (Excluding secondary payloads)
         FY 2001                                                                        100.02
         (Excluding secondary payloads)
         FY 2001                                                                        87.53
         (Including secondary payloads)
     1
       The 98.2-percent rate resulted from the ratio of 54 successful launches out of a total of 55 launches.
     The success rate for 1987 to December 2001 was 98.2-percent, or 55 successful launches out of a
     total of 56 launches, because there was one additional successful launch during the additional 3-
     month period, October through December 1987.
     2
       The 100-percent rate resulted from the ratio of seven successful launches out of a total of seven
     launches. The calculation excluded the failed launch of the QuikTOMS, a secondary payload on a
     non-NASA launch, because it was a secondary payload.
     3
       The 87.5-percent rate resulted from the ratio of seven successful launches out of a total of eight
     launches. The one launch failure was QuikTOMS, a secondary payload on a non-NASA launch.



     •    The Congress and the public will obtain insight into how the 95-percent success
          rate compares to NASA's historical launch performance or to launch performance
          by comparable launch operations at Government and private organizations.
          Insight into the rate will enable the Congress and the public to determine whether
          meeting the 95-percent success rate is an acceptable level of performance.

Conclusion

GPRA and the President's Management Agenda intend that performance information for
the ELV Program give the Congress and the public insight for decisions and confidence
in the results achieved for the $36 million FY 2003 budget for technical management and
acquisition services. GPRA and OMB require agencies to state performance goals and
indicators in an objective form to accomplish this intended purpose. In Strategic Goal 1
and Performance Measure 3H03, the Office of Space Flight did not clearly define the
terms success and running average and did not provide the basis of the 95-percent
success rate. With additional explanations, external users of performance information,
such as the Congress and the public, can better understand reports of actual performance
and can better evaluate actual performance against the $36 million spent for the $338
million program.



16
 NASA will not report actual performance under the FY 2002 performance goals and indicators until after
September 30, 2002.

                                                      5
Recommendation, Management’s Response, and Evaluation of
Management’s Response

The Associate Administrator for Space Flight should direct the Assistant Associate
Administrator for Launch Services to explain the ELV Program performance goal
and indicator in the FY 2003 NASA Performance Plan or Performance Report to
clarify the

   •   meaning of the key terms success and running average and

   •   the basis for the prescribed 95-percent rate established for mission success.

Management’s Response. Concur. NASA will explain the ELV Program performance
indicator in the FY 2003 NASA Performance Plan or Performance Report to clarify the
two key terms and the basis for the prescribed 95-percent rate established for mission
success. In addition, NASA’s FY 2002 Performance Report will include a description of
how the noted performance indicator was achieved, including clarification of noted
terms. It is expected that the FY 2002 NASA Performance Report will be released in
late-January 2003 (see Appendix F).

Evaluation of Management’s Response. Management’s planned corrective action is
responsive to the recommendation. The recommendation is resolved but will remain
undispositioned and open for reporting purposes until the corrective action is completed.




                                            6
               Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to evaluate the Expendable Launch Vehicle (ELV) Program's
performance measurement system and compliance with NASA risk mitigation policy for
launch vehicles. Specifically, we determined whether NASA did the following:

     •   Established a performance measurement system for the ELV Program that
         complied with Federal requirements and other appropriate criteria.

     •   Managed ELV launch services in compliance with Agency risk mitigation policy.
         Specifically, we determined whether NASA categorized payload and instrument
         risk and selected launch vehicles based on the risk category. Also, we determined
         whether NASA complied with other relevant provisions of NASA's risk
         mitigation policy, including applicable Federal and NASA clauses in contracts for
         launch services.

Scope and Methodology

For the first objective, we interviewed the NASA Assistant Associate Administrator for
Launch Services and other key ELV Program officials at Kennedy Space Center. We
reviewed laws, policy, procedures, and guidelines applicable to performance measures.17
We also reviewed the ELV Program Management Plan, the ELV Program Commitment
Agreement, ELV Launch Services Project Plan, and other key documents for information
on performance measures. We evaluated (1) the two ELV Program performance
measures (that is, annual performance goals and indicators) appearing in the Agency's
fiscal year 2002 and 2003 Annual Performance Plans and (2) the four performance
metrics Kennedy Space Center (Kennedy) uses to measure ELV Program performance.
The two performance measures are in Appendix B, and the four Kennedy metrics we
evaluated were Mission Success, On-Time NASA launches, On-Time Processing, and
External Customer Satisfaction. We also reviewed benchmarks NASA used for
evaluating the ELV Program's performance; procedures NASA management will use to
gather, validate, and report performance data for FY 2002 and subsequent years; and
support for Kennedy performance metrics.

For the second objective, we interviewed the NASA Assistant Associate Administrator
for Launch Services, the Kennedy ELV Program Deputy Program Manager, and other
key ELV Program and procurement officials at Kennedy. We reviewed NASA Policy
Directive (NPD) 8610.7, "Launch Services Risk Mitigation Policy for NASA-Owned or


17
  Specifically, we reviewed the Government Performance and Results Act (GPRA), Office of Management
and Budget Circular A-11 ("Preparing and Submitting Budget Estimates") sections relating to performance
plans and reports, and two General Accounting Office guides for preparing and evaluating Federal
agencies' annual performance plans.

                                                   7
Appendix A

NASA-Sponsored Payloads"; the ELV Program Management Plan; the ELV Program
Commitment Agreement; the ELV Launch Services Project Plan; and other key
management documents. The scope included a universe of 27 ELV payloads scheduled
for launch from 2001 to 2003. From the universe of 27 launches, we selected 918 for
further review. For the nine selected launches, we asked the Assistant Associate
Administrator for Launch Services to provide information on the cost, complexity, and
risk category of each payload and the risk category of the launch vehicle selected for
each. We used that information to evaluate NASA compliance with NPD 8610.7 launch
vehicle selection requirements. We did not evaluate whether the subject launch vehicles
met the technical certification requirements for their respective risk categories. See
Appendix C for further information on the NPD 8610.7 risk categories and suitable
launch vehicles. We also reviewed other risk mitigation controls contained in NPD
8610.7: (1) NASA contract insight provisions, (2) NASA Spacecraft Announcements of
Opportunities,
(3) the launch service task order (solicitations) process, and (4) records of vehicle history
and reliability statistics. See Appendix D for further information on these NPD 8610.7
requirements.

We did not test computer-processed data, because we did not rely on the data to achieve
our objectives.

Management Controls Reviewed

As part of our evaluation of performance measurement, we reviewed (1) management
controls over the development of performance goals and indicators included in the
FY 2003 Performance Plan to ensure their compliance with the Government Performance
and Results Act and Office of Management and Budget requirements; (2) procedures
management will use to validate, verify, and report performance data for the FY 2002
Performance Plan; and (3) metrics being developed to evaluate the performance of
operations and organizations that provide launch services. Controls were adequate
except for the matters discussed in the finding section of the report.

As part of our evaluation of risk mitigation, we reviewed compliance with risk mitigation
controls on launches covered by NPD 8610.7 and on two launches not covered by NPD
8610.7 that experienced problems. For the seven launches we reviewed, procedures and
practices met control requirements outlined in NPD 8610.7.




18
 The nine launches we reviewed consisted of (1) seven launches procured under the Small ELV Services
and NASA Launch Services contracts, to which NPD 8610.7 applies, and (2) two other launches that
experienced problems. The two problem launches included the Quik Total Ozone Mapping Spectrometer
mission's launch, which failed, and the Kodiak Star mission's launch, which was delayed several times but
was eventually successful.

                                                    8
                                                                        Appendix A

Audit Field Work

We conducted field work from November 2001 through May 2002 at NASA
Headquarters and Kennedy. We performed the audit in accordance with generally
accepted Government auditing standards.




                                         9
     Appendix B. ELV Program Performance Goals and Indicators
        Excerpted From the NASA FY 2003 Performance Plan

         Human Exploration and Development of Space (HEDS) Enterprise
           Access to Space (Expendable Launch Vehicles and Payloads)

     NASA Strategic Goals and Objectives                 Annual Performance Goals
                                                              and Indicators

Goal 1 - Explore the Space Frontier                   3H03: Provide reliable launch
                                                      services for approved missions.
Objective: Enable human exploration through               • NASA success rate at or
collaborative robotic missions.                              above a running average of
                                                             95 percent for missions
Public Benefit: A better understanding (at the               noted on the Flight Planning
earliest possible dates) of the space and planetary          Board manifest and
environments to which human explorers will one               launched pursuant to
day travel will make possible a more focused,                commercial launch service
more effective and lower cost investment to                  contracts.
develop the technologies needed for future human
and robotic exploration and development of space.
This knowledge and understanding will also make
possible reduced risks to the health and safety of
future astronauts. Overall, pursuing collaborative
robotic missions will result in future human and
robotic exploration missions with lower costs and
greater benefits that would be otherwise
achievable. HEDS supports this strategic
objective by working collaboratively with other
enterprises on advanced planning activities and
providing launch services supporting NASA
sponsored missions including robotic spacecraft
missions.

Goal 3 - Enable the Commercial Development of         3H17: Establish mechanisms to
Space                                                 enable NASA access to the use of
                                                      U.S. commercially developed
Objective: Improve the accessibility of space to      launch systems.
meet the needs of commercial research and                 • Assure that NASA launch
development.                                                 service contracts include
                                                             annual on-ramps for newly
Public Benefit: New commercially developed                   developed commercial
launch services will be able to compete for NASA             launch services as they meet
launches when they meet NASA’s risk mitigation               NASA's risk mitigation
policy.                                                      policy.

                                            10
    Appendix C. Payload/Instrument Risk Categories in NPD 8610.7

To balance mission risk with launch vehicle demonstrated history and maturity, NASA
Policy Directive 8610.7, "Launch Services Risk Mitigation Policy for NASA-Owned or
NASA-Sponsored Payloads," divides payloads and instruments into the following three
risk categories and describes suitable launch vehicles for each category.

                                       Risk Category 1

   •   Payloads/Instruments - Applies to payloads and instruments that are non-
       mission critical, require simple interface and mission design, and/or are low cost
       (for example, university research experiments or instrumentation).

   •   Suitable Launch Vehicle - Applies to a launch vehicle such as (1) a new launch
       vehicle with no previous flight history or (2) the first flight of a new configuration
       of a flight-proven launch vehicle incorporating a major system upgrade. Launch
       vehicle must achieve 95-percent predicted design reliability.

                                       Risk Category 2

   •   Payloads/Instruments - Applies to missions that are collectively mission critical
       to the implementation of NASA's Strategic Plan, require moderate complexity of
       mission design and integration, and/or are of moderate cost.

   •   Suitable Launch Vehicle - Mission may launch on (1) NASA-acquired launch
       services from qualified suppliers with at least one fully successful launch of a
       common vehicle or (2) Kennedy Space Center (Kennedy) verification that the
       demonstrated common vehicle configuration met predicted vehicle and
       performance parameters. Launch vehicle must achieve 95-percent predicted
       design reliability.

                                       Risk Category 3

   •   Payloads/Instruments - Applies to missions that are individually mission critical
       to implementation of NASA's Strategic Plan, require complex mission interface or
       design, and/or are of high cost.

   •   Suitable Launch Vehicle - Missions may launch on (1) NASA-acquired launch
       services from qualified suppliers with a demonstrated flight record consisting of a
       series of consecutive successful launches of a common vehicle configuration (that
       is, 95-percent reliability at 50-percent confidence level); (2) Kennedy verification
       that the common vehicle configuration has been verified to meet predicted vehicle




                                             11
Appendix C

  and performance parameters; or (3) an on-orbit services contract utilizing services
  from a qualified supplier that will be considered on a case-by-case basis for analysis
  between the mission Enterprise Associate Administrator and the Office of Space
  Flight. To prove the 95-percent reliability at a 50-percent confidence level, the
  launch vehicle must achieve a series of 14 or more consecutive successful flights of
  common vehicle configuration.




                                          12
   Appendix D. Risk Mitigation Requirements in NPD 8610.7

Our review included the following NASA Policy Directive 8610.7, "Launch Services
Risk Mitigation Policy for NASA-Owned or NASA-Sponsored Payloads," risk mitigation
requirements:

             Section 1.c.(5)

             Any NASA contracts which include the launch services as an
             integrated mission service (e.g., on-orbit or turnkey service) for a
             NASA-funded mission shall include a provision for NASA insight into
             launch contractor systems engineering, processes and process control
             to ensure quality and reliability of launch services, and consistency
             with this policy.

             Section 5.b.

             The Enterprise Associate Administrators are responsible for assuring
             that all spacecraft Announcement of Opportunities and Request for
             Proposals are coordinated with the Office of Space Flight for
             consistency with this policy prior to publication.

             Section 5.c.

             The Kennedy Space Center Director is responsible for ensuring that all
             launch services solicitations for NASA-owned or NASA-sponsored
             payloads are consistent with this policy and coordinated with the
             Office of Space Flight (OSF).

             Section 7.a.

             OSF will maintain a record of vehicle flight history and reliability
             statistics for all U.S. and foreign launch vehicle suppliers.




                                              13
     Appendix E. Verification and Validation of Performance Data

The FY 2003 Performance Plan describes the following verification and validation
procedures:


                                  Verification and Validation

              Internal Assessment

              Interim evaluation and monitoring of performance targets will be
              conducted -- as required -- as an element of regular meetings of the
              Office of Space Flight and HEDS [Human Exploration and
              Development of Space] Management Boards.

              Final data collection, reporting and verification for inclusion in
              NASA's Annual Performance Report will rely on several different
              processes depending on the particular Annual Performance Goal.
              Wherever possible, a specific tangible product has been identified in
              the indicator for individual performance goals to strengthen the
              validation process.

              For many HEDS performance goals, (e.g. Space Shuttle in-flight
              anomalies, International Space Station assembly milestones)
              verification of performance is straightforward and progress is
              monitored through regular management channels and reports.

              External Assessment

              To assist in evaluating those performance goals that are more difficult
              to associate with specific tangible products, HEDS will employ an
              annual external assessment process. Past external assessors have
              included the: NASA Advisory Council, Space Flight Advisory
              Committee, General Accounting Office, NASA's Office of Inspector
              General, and National Research Council.
              .




                                                14
Appendix F. Management’s Response




               15
                        Appendix G. Report Distribution

Note: This list shows the distribution of the final report only. The list does not apply to
the draft report.

National Aeronautics and Space Administration (NASA) Headquarters

HQ/A/Administrator
HQ/AI/Associate Deputy Administrator
HQ/AA/Chief of Staff
HQ/B/Acting Deputy Chief Financial Officer
HQ/B/Comptroller
HQ/BF/Director, Financial Management Division
HQ/G/General Counsel
HQ/H/Assistant Administrator for Procurement
HQ/HK/Director, Contract Management Division
HQ/HS/Director, Program Operations Division
HQ/J/Assistant Administrator for Management Systems
HQ/JM/Director, Management Assessment Division
HQ/L/Assistant Administrator for Legislative Affairs
HQ/M/Associate Administrator for Space Flight
HQ/S/Associate Administrator for Space Science
HQ/Y/Associate Administrator for Earth Science

NASA Centers

KSC/AA/Director, John F. Kennedy Space Center
KSC/CC/Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                             16
                                                                     Appendix G

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         17
                    NASA Assistant Inspector General for Audits
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title: Expendable Launch Vehicle Performance Measures

Report Number:                                             Report Date:


Circle the appropriate rating for the following statements.
                                                       Strongly                                Strongly
                                                        Agree     Agree   Neutral   Disagree   Disagree   N/A

1.   The report was clear, readable, and logically          5       4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.               5       4       3          2          1       N/A
3.   We effectively communicated the audit                  5       4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to         5       4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?


#     Excellent         #    Fair
#     Very Good         #    Poor
#     Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                                      18
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #     Media
   #   NASA Employee                       #     Public Interest
   #   Private Citizen                     #     Other:
   #   Government:            Federal:              State:         Local:


May we contact you about your comments?

Yes: ______                                    No: ______
Name: ____________________________
Telephone:_________________________
___________________


Thank you for your cooperation in completing this survey.
.




                                          19
Major Contributors to the Report

Daniel J. Samoviski, Program Director, Earth/Space Science Audits

Nora E. Thompson, Program Manager

James E. Richards, Auditor-in-Charge

Nancy C. Cipolla, Report Process Manager

Iris T. Purcarey, Program Assistant
